                                                                             Report No. DODIG-2014-106



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 9, 2014




                     Military Sealift Command
                     Oversight of Excess Spare-Parts
                     Inventory and Purchases for Sealift
                     Program Roll-On/Roll-Off Ships
                     Needs Improvement




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                              Results in Brief
                              Military Sealift Command Oversight of Excess
                              Spare-Parts Inventory and Purchases for Sealift Program
                              Roll-On/Roll-Off Ships Needs Improvement


September 9, 2014                               Findings (cont’d)

Objective                                       the numbers of excess spare parts available for reuse, resale,
                                                or disposal, increasing the risk that purchases could be
We determined whether the Military              made for spare parts already aboard the ships.
Sealift Command (MSC) effectively managed
the quantities of spare parts in inventory      In addition, the MSC property administrator and contracting
and procured the spare parts at fair            officer did not ensure that Patriot Contract Services (PCS)
and reasonable prices for the large,            had acceptable justification for 13 spare‑parts purchases not
medium-speed,      roll-on/roll-off  (LMSR)     adequately competed and used the Defense Supply System
ships in the Sealift Program. To determine      (DSS) for spare-parts purchases. This occurred because the MSC
whether MSC procured spare parts at             property administrator did not properly review purchase orders
fair and reasonable prices, we focused on       during the invoice-review process, and the contracting officer
price competition, a key control to ensure      included contradictory language regarding DSS use in the PCS
price reasonableness. We performed this         contract. As a result, MSC potentially overpaid for parts procured
audit in response to a congressional request.   without adequate competition and paid about $63,674 more
                                                than the DSS price for 28 of 76 parts purchased during FY 2011

Findings                                        and FY 2012.

The MSC property administrator did not
effectively manage the excess spare-parts       Recommendations
inventory on two Sealift Program LMSR           Among      other   recommendations,     we   recommend       the
ships, and there were indications in MSC’s      Commander, MSC perform a 100-percent inventory of spare
records that these conditions existed on        parts aboard the Sealift Program LMSR ships, update on-hand
two other ships. According to MSC               quantities, reevaluate allowance levels, and process all spare
inventory records, on-hand spare parts          parts deemed excess for reuse, resale, or disposal. In addition,
exceeded authorized allowance levels for        the Commander, MSC, should establish controls to ensure
4,677  spare parts, with the excess valued at   the contractor follows contract requirements for competition
$3.4  million. Although we did not verify all   and DSS use.
recorded excess, of the 60 spare parts
we inventoried, we verified excess for
49 spare parts, valued at $692,305. The         Management Comments and
excess occurred because MSC staff did           Our Response
not ensure the contractor complied with
                                                Comments from the Military Sealift Command addressed all
contract provisions on excess government
                                                specifics of the recommendations, and no further comments
property. As a result, MSC did not know
                                                are required. Please see the Recommendations Table on the
                                                next page.

Visit us at www.dodig.mil


                                                                    DODIG-2014-106 (Project No. D2012-D000LD-0219.000) │ i
                  Recommendations Table
                                                              Recommendations          No Additional
                                  Management                  Requiring Comment      Comments Required
                                                                                  A.1, A.2, A.3, A.4, A.5, B.1,
                      Commander, Military Sealift Command   None                  and B.2




ii │ DODIG-2014-106
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                              September 9, 2014

MEMORANDUM FOR NAVAL INSPECTOR GENERAL
               COMMANDER, MILITARY SEALIFT COMMAND

SUBJECT:	 Military Sealift Command Oversight of Excess Spare-Parts Inventory
          and Purchases for Sealift Program Roll-On/Roll-Off Ships Needs Improvement
          (Report No. DODIG-2014-106)

We are providing this report for your information and use. We performed this audit in
response to a congressional request. Military Sealift Command personnel did not effectively
manage the excess spare-parts inventory on two Sealift Program large, medium-speed,
roll-on/roll-off ships and there were indications in Military Sealift Command’s records
that these conditions existed on two other ships. In addition, Military Sealift Command
officials did not effectively manage spare-parts procurement on two ships. As a result,
excess spare parts were not considered for reuse, resale, or disposal, and the Military Sealift
Command overpaid at least $63,674 for spare parts purchased in FY 2011 and 2012.

Although the data used to support the report findings was from FY 2011 through 2012, the
findings and recommendations were still relevant because corrective actions had not been
completed as indicated in the Military Sealift Command’s comments to a draft of this report.

We considered the Military Sealift Command’s comments when preparing the final report.
Those comments addressed all specifics of the recommendations and conformed to the
requirements of DoD Directive 7650.3; therefore, we do not require additional comments.

We appreciate the courtesies extended to the staff.             Please    direct   questions   to
Mr. Timothy Wimette at (703) 604‑8876 (DSN 664‑8876).




	                                              Daniel R. Blair
                                               Deputy Inspector General
                                                 for Auditing




                                                                                          DODIG-2014-106 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________3

                  Finding A. Excess Spare-Parts Inventory Not
                  Effectively Managed________________________________________________________________4
                  Excess Spare-Parts Inventory___________________________________________________________________4
                  Inadequate Oversight of Contractor Performance_____________________________________________7
                  Numbers of Excess Spare Parts Unknown_____________________________________________________9
                  Management Comments on Background and Finding A and Our Response_______________ 10
                  Recommendations, Management Comments, and Our Response__________________________ 10

                  Finding B. Spare-Parts Purchase Requirements Not
                  Consistently Followed_ _________________________________________________________ 14
                  Adequate Competition Not Always Achieved________________________________________________ 14
                  DSS Not Used___________________________________________________________________________________ 15
                  Purchase Orders Not Properly Reviewed____________________________________________________ 15
                  Contract Requirement for DSS Use Not Clear________________________________________________ 16
                  Increased Potential for Overpayment________________________________________________________ 16
                  Management Comments on Finding B and Our Response__________________________________ 17
                  Recommendations, Management Comments, and Our Response__________________________ 17

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 19
                      Use of Computer-Processed Data_ _______________________________________________________ 20
                      Use of Technical Assistance_______________________________________________________________ 21
                      Prior Coverage _ ___________________________________________________________________________ 21
                  Appendix B. Congressional Request Related to Spare Parts Aboard the
                     USNS Gilliland______________________________________________________________________________ 22




iv │ DODIG-2014-106
Contents (cont’d)
Appendix C. MSC Sealift Program LMSR Ships______________________________________________ 23
Appendix D. Excess Aboard USNS Gilliland__________________________________________________ 24
Appendix E. Excess Aboard USNS Gordon___________________________________________________ 26

Management Comments
Military Sealift Command_____________________________________________________________________ 28

Acronyms and Abbreviations______________________________________________ 38




                                                                                                   DODIG-2014-106 │ v
                                                                                              Introduction




Introduction
Objective
Our audit objective was to determine whether the Military Sealift Command (MSC)
effectively managed the quantities of spare parts in inventory and procured the
spare parts at fair and reasonable prices for the large, medium-speed, roll-on/roll-off
(LMSR) ships in the Sealift Program.

We performed this audit in response to a congressional request concerning the
quantity and price of spare parts stored on the United States Naval Ship (USNS)  Gilliland.
The request was to address concerns that about $1 million in excess spare parts
were stored on the USNS  Gilliland and that the Government had overpaid for
those parts. (See Appendix B for results specific to the congressional request.)
Consistent with this request, we reviewed spare-parts inventory records for the
USNS  Gilliland and three other ships managed by the same contractor, Patriot
Contract Services (PCS). For two of the ships, the USNS  Gilliland and USNS  Gordon,
we inventoried selected spare parts and reviewed spare-parts procurement.
To determine whether spare parts on the USNS  Gilliland and the USNS  Gordon were
procured at fair and reasonable prices, we focused on price competition, a key control
to ensure price reasonableness. See Appendix A for the audit scope and methodology.


Background
The MSC Sealift Program provides ocean transportation of vehicles and equipment
for DoD and other Federal agencies during peacetime and war. The program uses
a mix of Government-owned and long-term-chartered dry-cargo ships and tankers,
as well as additional short-term or voyage-chartered ships. Part of MSC’s surge
sealift fleet includes Government-owned, contractor-operated LMSR ships that
support the U.S. military.

According to MSC, each LMSR ship is capable of carrying the equipment
requirements of an Army air assault or armored battalion of up to 1,000 soldiers
and can travel at up to 24 knots. MSC has nine LMSR ships in its Sealift Program
fleet. (See Appendix C for a list of those ships.) When they are in reduced operating
status, these ships are ordinarily kept pierside with a crew of 13 contractor
employees, which increases to 30 contractor employees when the ship is in full
operating status. According to MSC, the LMSRs are capable of departure from
U.S. ports in 4 days, fully activated and crewed.




                                                                                          DODIG-2014-106 │ 1
Introduction




                     Figure. USNS Gordon at Sea
                     Source: Military Sealift Command



                 Operation and Maintenance Contracts
                 In 2010, MSC awarded two operation and maintenance contracts for the nine
                 Government-owned LMSR ships in the Sealift Program. PCS was awarded contract
                 No. N00033-10-C-5301, for the Gilliland, Gordon, Shughart, and Yano, and American
                 Overseas Marine (AMSEA) was awarded the contract for the other five LMSR ships.
                 According to the contract, PCS is responsible for providing a wide range of services,
                 including crew management; repair-part procurement and inventory; and ship
                 maintenance. The contractor procures all spare parts, supplies, and equipment
                 necessary to maintain and repair the ships and maintains authorized allowances1
                 for spare parts in the Shipboard Configuration and Logistics Program (SHIPCLIP).




                 	1	
                       Authorized allowance refers to the quantity of a particular part that a ship is allowed to carry based on its configuration,
                       installed equipment, and demand.




2 │ DODIG-2014-106
                                                                                                                                     Introduction



The PCS contract is a fixed-price contract with reimbursable elements. The
contract specifies fixed daily reimbursement rates for three operating statuses:
full, reduced, and repair availability. The contract also specifies fixed charges
for transition between the various operating statuses. In addition, the contract
specifies reimbursement for the cost of spare parts, supplies, and equipment
averaging about $12.5 million annually from FY 2010 to FY 2013. MSC only
reimburses PCS for the actual cost of spare parts, including shipping and tax.


SHIPCLIP
SHIPCLIP is the Government’s database for maintaining shipboard configuration,2
as well as its tool for invoice certification. The contractor uses SHIPCLIP to
manage the spare-parts inventory for the ships under contract. SHIPCLIP contains
established allowance quantities for material to be carried aboard for the
operation, maintenance, and repair of the ship’s equipment, as well as an automated
record of Government-furnished property, which includes the spare-parts inventory.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May 30, 2013, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls. We identified an
internal control weakness with the MSC logistics and contracting personnel
oversight of the contractor’s management of excess spare-parts inventory and
spare-parts procurement for two Sealift Program LMSR ships. We will provide a copy
of this report to the senior officials responsible for internal controls in the
Department of the Navy and MSC.




	2	
      Configuration refers to the equipment installed aboard and the authorized allowance of spare parts to be stored for repairs.




                                                                                                                                 DODIG-2014-106 │ 3
Finding A




                 Finding A
                 Excess Spare-Parts Inventory Not Effectively Managed
                 The MSC property administrator did not effectively manage the excess spare‑parts
                 inventory on the two Sealift Program LMSR ships and there were indications in
                 MSC’s records that these conditions existed on two other ships. According to
                 MSC SHIPCLIP inventory records, on-hand spare parts exceeded authorized
                 allowance levels for 4,677 spare parts,3 with the excess valued at $3.4 million.
                 Although we did not verify all recorded excess, we nonstatistically selected and
                 physically inventoried 60 spare parts on two of the ships; we verified that 49 had
                 excess on-hand inventory, valued at $692,305. In addition, SHIPCLIP records were
                 incorrect for 21 of the 60 spare parts, and of 10 spare parts we traced from the
                 ships to the SHIPCLIP records, 3 were not accounted for in those records. The excess
                 and inaccurate inventory existed because MSC logistics and contracting officials
                 did not provide sufficient oversight to ensure that PCS complied with the contract
                 provisions related to excess Government property and inventory management.
                 As a result, MSC did not know the numbers of excess spare parts available for
                 reuse, resale, or disposal and increased the risk that purchases could be made for
                 spare parts already aboard the ships.	

                 	3	
                       “Spare parts” in this report refers to a spare-part type instead of the actual count of that spare-part type aboard the
                       ship. A national stock number designates a spare-part type; for example, the national stock number 5306-22-269-2811
                       designates a certain type of machine bolt. There can be one or more units of this machine bolt aboard a ship.




                 Excess Spare-Parts Inventory
                 MSC personnel did not effectively manage the excess spare-parts inventory on
                 two Sealift Program LMSR ships and there were indications in MSC’s records that
                 these conditions existed on two other ships in our review. We confirmed there
                 were excess spare parts aboard the USNS Gilliland similar to the parts referenced
                 in the congressional request. Furthermore, the Gilliland’s SHIPCLIP records
                 indicated there were excess spare parts in addition to those referenced. A review
                 of the SHIPCLIP records for the other three LMSR ships under the PCS contract
                 indicated excess spare parts on those ships as well. To verify a portion of the
                 excess, we conducted a physical inventory of 60 different spare parts with
                 high-excess values aboard the USNS Gilliland and USNS Gordon. We also selected
                 10 spare parts found in the ship’s storerooms to determine whether the parts
                 were properly accounted for in SHIPCLIP.




4 │ DODIG-2014-106
                                                                                                   Finding A



SHIPCLIP Spare-Parts Inventory Exceeded Authorized
Allowance Levels
SHIPCLIP records indicated that the four LMSR ships had $3.4 million worth of
on-hand spare parts in excess of authorized allowances. The $3.4 million excess
represented 4,677 different national stock numbers (NSN) for which SHIPCLIP
on-hand inventories exceeded authorized quantities by 59,835 units. The number
of excess spare parts represented 11.4 percent of the total spare-parts inventory,
and the value of units held in excess represented 18.1 percent of the total
spare-parts inventory value. According to PCS property-control procedures, PCS was
required to determine whether excess spare parts could be used on another vessel
or on another PCS Government contract once identified and recommend
disposition action to the contracting officer. Table 1 identifies the excess and total
spare-parts inventory aboard each ship and the value of that inventory according
to SHIPCLIP.

Table 1. Excess Spare-Parts Inventory According to SHIPCLIP Records
                             Quantity of                                        Total
  U.S. Naval   Spare Parts                 Value of Units    Total Spare
                             Units Held                                      Spare-Parts
     Ship      With Excess                 Held in Excess   Parts Aboard
                              in Excess                                    Inventory Value
 Gilliland       1,594         33,660         $977,030        11,279          $4,976,397
 Gordon          1,215          6,921           648,157       11,303            4,505,776
 Shughart        1,108         10,286         1,001,973        8,980            4,689,232
 Yano              760          8,968           737,517        9,442            4,417,098
  Total          4,677         59,835        $3,364,677       41,004         $18,588,503


Physical Inventory Validated Excess on Gilliland and Gordon
Our physical inventory of 60 spare parts aboard the Gilliland and Gordon verified
excess for 49 of those spare parts. To conduct the physical inventory, we
nonstatistically selected 30 parts each aboard the Gilliland and Gordon with the
highest calculated excess value. See Appendix D for a list of the 30 spare parts
inventoried aboard the Gilliland and the corresponding results and Appendix  E
for a list of the 30 spare parts inventoried aboard the Gordon and those
corresponding results.




                                                                                             DODIG-2014-106 │ 5
Finding A



                 According to SHIPCLIP records, the 30 spare parts inventoried aboard the
                 Gilliland were valued at $772,823, and the excess quantities of those parts were
                 valued at $522,500. Our physical inventory verified that 24 of the 30 spare parts
                 had excess quantities but that the excess was valued at $420,709, instead of
                 $522,500, as stated in SHIPCLIP. The inventory aboard the Gordon resulted in
                 similar findings. SHIPCLIP records indicated the 30 spare parts inventoried were
                 valued at $568,478 and that the excess quantities of those parts were valued at
                 $301,141. Our physical inventory verified that 25 of the 30 spare parts had
                 excess quantities but that the excess was valued at $271,596, instead of $301,141,
                 as stated in SHIPCLIP.

                 Across both ships, we verified that 49 of the 60 spare parts
                 had excess quantities valued at $692,305 (52 percent) for
                 the parts inventoried, which had a value of $1,341,301.             49 of the 60 spare
                 For the Gilliland, the verified excess value of $420,709             parts had excess
                                                                                     quantities valued
                 represented 54 percent of the inventory value for the                  at $692,305
                 selected 30 parts and for the Gordon, the verified excess
                 value of $271,596 represented 48 percent of the inventory
                 value for the selected 30 parts.


                 SHIPCLIP Records Not Accurate
                 Our physical inventory of the 60 spare parts aboard the Gilliland and the
                 Gordon   indicated   the   SHIPCLIP   records   were   inaccurate   for   some   parts.
                 Specifically, the SHIPCLIP records did not match our physical inventory for
                 19 spare parts, and there was an error in unit of measure for another 2 parts.
                 Moreover, of the 10 spare parts we attempted to trace from the ship storerooms
                 back to the SHIPCLIP records, 3 were not accounted for in those records. On the
                 Gilliland, we determined that recorded SHIPCLIP on-hand quantities did not
                 match our physical inventory for 7 of the 30 spare parts inventoried. On the
                 Gordon, we determined that SHIPCLIP recorded on-hand quantities did not
                 match our physical inventory for 12 of the 30 spare parts inventoried.

                 We also conducted a reverse inventory of 10 spare parts located on the Gilliland
                 and Gordon, which found that the SHIPCLIP records were not complete. For the
                 reverse inventory, we nonstatistically selected 10 (5 from each of the 2 ships)
                 spare parts found in the storerooms aboard the Gilliland and Gordon and traced
                 them back to SHIPCLIP. For the Gilliland, 2 of the 5 spare parts (24 bearings and




6 │ DODIG-2014-106
                                                                                            Finding A



2 static shields) found in the storeroom were not recorded in SHIPCLIP. For the
Gordon, one of the five spare parts (six sleeve bushings) was not recorded in
SHIPCLIP. The parts were not identified by NSN, so we could not determine
their value.

MSC logistics personnel stated they were not sure why the spare parts were not
recorded in SHIPCLIP but that the parts could have been part of a kit purchased
as a direct-turnover item and that the parts were not needed or were left over from
a repair. According to contractor personnel, direct turnover is the process used
to order spare parts not in SHIPCLIP and intended for one-time fixes. These spare
parts are not intended to be stocked when ordered but could be stocked if the
parts received with the kit exceeded the quantity actually needed for the repair.


Inadequate Oversight of Contractor Performance
The excess and inaccurate inventory existed because MSC logistics and contracting
officials did not provide sufficient oversight to ensure PCS complied with the
contract provisions related to excess Government property as outlined in
COMSCINST 4340.3C, “Military Sealift Command Contract Property Administration
Manual,”   February   16,   2010.   The   manual   states   that   the   MSC   property
administrator will require the contractor to review and provide justification
for retaining excess government property not currently in use in accordance with
the contract. The manual also states that the logistics program manager will ensure
the contractor submits allowance change requests. An allowance change request is
used to notify MSC that the authorized allowance for a particular spare part needs
to be increased or decreased and provides a rationale for the change. MSC
logistics staff did not focus on identifying excess when conducting inventory
audits aboard the LMSR ships, and PCS personnel did not identify Government
property in excess of allowance quantities and attempt to transfer or dispose
of the property.

In May 2012, MSC logistics staff performed spare-parts inventory audits on the
USNS Gilliland and USNS Gordon to determine whether the spare-parts quantity
on hand per SHIPCLIP equaled the quantity counted. In the two resulting reports,
MSC staff identified shortages and overages when comparing the inventory count
to the SHIPCLIP on-hand quantity, but they did not identify any excess inventory.
MSC sampled 279 spare parts and found shortages for 22 spare parts. MSC
recommended the contractor find the parts or file paperwork documenting
PCS’ financial liability for the missing parts. MSC staff also found overages for




                                                                                      DODIG-2014-106 │ 7
Finding A



                 2 of the 279 items reviewed and recommended PCS adjust the SHIPCLIP records
                 for additional parts found. However, MSC staff did not identify excess spare parts
                 because the reviews were focused on identifying parts with shortages and steps
                 to remedy the shortages, rather than identifying excess spare parts for reuse, resale,
                 or disposal.

                 In addition to the inventory audits, MSC staff conducted inspections of the
                 conditions aboard the Gordon in February 2012 and the Gilliland in July 2012.
                 They did not include excess as part of the inspection; instead, the staff verified that
                 parts procured on recent purchase orders were on hand or had been installed on
                 the ship. During this limited review of recent purchases, MSC staff did not consider
                 whether the parts were purchased and stored in excess of the authorized
                 allowance. Thus, MSC staff did not note any excess inventory in their reports.
                 The Commander, Military Sealift Command, should ensure that during periodic
                 MSC-conducted inventories, MSC staff compare on-hand quantities with authorized
                 quantities and take appropriate action on any identified excess.

                 During our review of the SHIPCLIP inventory reports, we determined that of the
                 279 spare parts inventoried by MSC, 59 spare parts had an on-hand quantity
                 that exceeded the authorized allowance quantity according to the SHIPCLIP records.
                 PCS contract Section 5 “Government Furnished Property-General” Paragraph  5.4,
                 “Repair/Spare Parts,” refers to section 15 of the LMSR Technical Manual for
                 guidance on parts management. Section 15 states that the contractor is required
                 to develop and implement a property control system to manage (control, use,
                 preserve, protect, repair and maintain) Government property in its possession.
                 To satisfy that requirement, PCS developed property control procedures, which
                 were approved by MSC in 2011.

                 The PCS property control procedures require that PCS take the following steps
                 once excess is identified.

                          •	 If PCS personnel identify Government property in excess of allowance
                             quantities, PCS personnel will first research requirements throughout
                             the Government program for possible transfer to another vessel.

                          •	 If a transfer is not possible, PCS personnel will review other Government
                             contracts held by PCS for possible requirements.




8 │ DODIG-2014-106
                                                                                          Finding A



        •	 After the requirements review, PCS will notify the contracting officer in
           writing of the identity of the excess materials and recommend transfer
           to another vessel, transfer between Government contracts, or disposal
           of the excess property.

        •	 When disposition instructions are received from the contracting officer,
           PCS will fulfill them as instructed.

Had MSC logistics and contracting officials periodically reviewed the SHIPCLIP
inventory records, they would have found that excess inventory existed on the
ships and required PCS to handle the excess in accordance with the property‑control
procedures. The Commander, Military Sealift Command, should ensure MSC
contracting officials establish controls to ensure PCS is complying with its
property-control procedures.


Numbers of Excess Spare Parts Unknown
MSC did not know the numbers of excess spare parts available for reuse, resale,
or disposal. The SHIPCLIP inventory records for the LMSR ships managed by
PCS indicated excess spare parts existed on all four ships. In addition, our
inventory of selected parts aboard the USNS Gilliland and the USNS Gordon
indicated that the SHIPCLIP records were incorrect with respect to the on-hand
inventory and the numbers of excess spare parts. Therefore, to ensure MSC can
determine the actual numbers of excess spare parts on all four LMSR ships managed
by PCS, the Commander, Military Sealift Command, should conduct a 100-percent
spare-parts inventory on the four PCS-managed LMSR ships, update SHIPCLIP
accordingly, reevaluate the inventory allowance levels, and process all spare
parts deemed excess for reuse, resale, or disposal. MSC could save funds if excess
parts on one ship are transferred and reused to satisfy purchases or shortages
aboard another Sealift Program LMSR ship or another ship in the MSC fleet.
In addition, the Government could generate funds if excess parts on a Sealift
Program LMSR ship were sold to entities in need of the part, or disposed of as scrap.




                                                                                    DODIG-2014-106 │ 9
Finding A



                 Management Comments on Background and Finding A
                 and Our Response
                 The Executive Director, Military Sealift Command, responding for the Commander,
                 Military Sealift Command, recommended deletion of the last sentence in the
                 SHIPCLIP paragraph of the background section. The Executive Director stated that
                 SHIPCLIP was not updated with actual Government property information during
                 turnover from the preceding contractor. In addition, the Executive Director
                 recommended that we revise the first sentence of Finding A to remove property
                 administrator and adjust the wording.


                 Our Response
                 We deleted the sentence in the background because it was not significant to
                 the report findings or recommendations. We considered the Executive Director,
                 Military Sealift Command’s request to revise the sentence in the finding. However,
                 we did not make the revision because the finding as stated correctly identifies
                 the responsible party and the wording adjustments would not alter the substance
                 of the finding.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation A
                 We recommend that the Commander, Military Sealift Command:

                       1.	 Require personnel responsible for conducting periodic Military
                             Sealift Command inventories, to compare on-hand quantities to
                             authorized quantities, and initiate appropriate actions for any
                             excess spare parts identified.

                 Military Sealift Command Comments
                 The Executive Director, Military Sealift Command, responding for the Commander,
                 Military   Sealift   Command,   agreed,   stating   a   property   management–system
                 assessment of the USNS Gordon and Gilliland was conducted in May 2014.
                 The Executive Director stated that the results of the assessment were provided to
                 MSC’s Sealift Program Manager and Director of Contracts and Business Management
                 for comments and recommended corrective actions.




10 │ DODIG-2014-106
                                                                                                    Finding A



PCS, by direction of the MSC contracting officer, has:

       •	 drafted       a    revised   Property   Control     Procedures   plan   to   address
              inventory control gaps. MSC reviewed the plan and recommended
              changes   to    PCS.     MSC   required   PCS    respond     to   comments   by
              August 8, 2014.

       •	 submitted feedback reports resolving $373,528 in excess repair parts
              by substantiating allowance change requests for increased allowances,

       •	 established monthly floor to record and record to floor inventory
              schedule and reporting requirements,

       •	 established monthly cyclic property inventory targets for durable
              moveable property,

       •	 initiated the posting to SHIPCLIP of excess property to improve
              accountability, and

       •	 improved direct turnover parts-handling procedures by designating a
              locked space for receipt of items, entering direct turnover parts into
              SHIPCLIP upon receipt, and conducting spot audits of 25 percent of
              direct-turnover parts requisitions monthly.

      2.	     Ensure that MSC contracting officials establish controls to ensure that
              PCS is complying with its property control procedures as required by
              the contract.

Military Sealift Command Comments
The Executive Director, Military Sealift Command, responding for the Commander,
Military Sealift Command, agreed, stating MSC needs to more closely monitor
contractor performance by developing and implementing internal procedures.
The Executive Director stated MSC:

            •	 created and filled a position to improve oversight of the contractor’s
              Property Management System Compliance Program.

            •	 intends to complete a property management system assessment by
              December 2014 on the other two PCS operated ships.




                                                                                             DODIG-2014-106 │ 11
Finding A



                 The Executive Director also stated that PCS will conduct training for appropriate
                 personnel on allowance change request procedures, material-ordering procedures,
                 and configuration management, and will complete that training by December 2014.

                 Further, the contracting officer, the contracting officer’s representative, and the
                 logistics representative for the PCS contract will meet to ensure understanding
                 of contract requirements, responsibilities, and identify lack of compliance issues.

                       3.	 Conduct a 100-percent inventory of the spare parts aboard the
                            PCS-managed large, medium-speed, roll-on/roll-off ships in the
                            Sealift Program fleet.

                 Military Sealift Command Comments
                 The Executive Director, Military Sealift Command, responding for the Commander,
                 Military Sealift Command, agreed, stating an inventory schedule was established
                 to conduct 100-percent physical inventory of all government furnished equipment
                 on the four PCS-managed ships. The Executive Director stated the planned
                 completion for the inventories is on or about December 31, 2014. The Executive
                 Director stated MSC will conduct a property-management system assessment
                 on each ship after the inventory is completed.

                       4.	 Update on-hand quantities in the Shipboard Configuration and
                            Logistics   Program      in   accordance   with   the   results   of   the
                            100-percent inventory.

                 Military Sealift Command Comments
                 The Executive Director, Military Sealift Command, responding for the Commander,
                 Military Sealift Command, agreed, stating that SHIPCLIP records will be updated
                 as a result of the 100-percent inventory and MSC will conduct a follow-up
                 property management–system assessment on each ship in 2015.




12 │ DODIG-2014-106
                                                                                             Finding A



     5.	     Based on inventory results, reevaluate allowance levels and process all
             spare parts deemed excess for reuse, resale, or disposal.

Military Sealift Command Comments
The Executive Director, Military Sealift Command, responding for the Commander,
Military Sealift Command, agreed, stating MSC performed a 100-percent review
of shipboard allowances for equipment onboard the four PCS-operated ships. In
addition, the Executive Director stated MSC initiated the following corrective actions:

           •	 based upon Government and contractor feedback revised configuration
             and allowances,

           •	 captured undocumented installed equipment and/or inventory quantities
             through review of direct-turnover parts and feedback reports,

           •	 reviewed and approved feedback reports,

           •	 identify excess inventory items versus allowances, and

           •	 determined actions regarding disposition on final excess.

Our Response
Comments from the Executive Director addressed all specifics of the recommendations,
and no further comments are required.




                                                                                      DODIG-2014-106 │ 13
Finding B




                 Finding B
                 Spare-Parts Purchase Requirements Not
                 Consistently Followed
                 MSC officials did not ensure that PCS consistently followed contract requirements
                 when purchasing spare parts for the LMSR ships. Specifically, the MSC property
                 administrator and contracting officer did not ensure that the contractor:

                               •	 justified not obtaining adequate competition for 13 of 20 purchase
                                   orders reviewed, which were issued during FY 2011 and FY 2012, and

                               •	 used DSS4 for spare-parts purchases made between the contract start
                                   in March 2010 and March 2013

                 This occurred because the MSC property administrator did not properly review
                 purchase orders as part of the invoice-review process, and the contracting officer
                 included contradictory guidance in the PCS contract concerning the use of DSS
                 before commercial purchases can be made for spare parts. As a result, MSC
                 potentially overpaid for spare parts procured without adequate competition, and
                 MSC paid about $63,674 more than the DSS price for 28 of 76 spare parts
                 purchased during FY 2011 and FY 2012.

                 	4	
                       In this report, DSS refers to the DoD Electronic Mall and Navy Supply System.




                 Adequate Competition Not Always Achieved
                 The MSC property administrator and contracting officer did not verify that PCS
                 had       acceptable          justification        for     inadequate          competition   for   13   purchase
                 orders issued during FY 2011 and FY 2012, valued at $299,822. PCS contract
                 section G-9 (b) “Reimbursable Supplies and Services (Operating Contracts),” states
                 that to be eligible to receive reimbursement for services and supplies obtained
                 in support of the contract, the contractor must obtain at least three price quotes
                 for each transaction in excess of $3,000. If three quotes are not obtained,
                 the contractor must provide acceptable justification as to why it was impracticable
                 to do so.

                 During FY 2011 and FY 2012, MSC reimbursed PCS $1,587,616 for USNS Gilliland and
                 USNS Gordon spare parts purchased. Those purchases included 117 PCS purchase-order
                 transactions, totaling $1,229,015 that exceeded the $3,000 threshold. We analyzed



14 │ DODIG-2014-106
                                                                                          Finding B



20 of the purchase orders (10 from the Gilliland and 10 from the Gordon), valued
at $474,164, to determine whether three quotes were obtained. If the three quotes
were not obtained, we determined whether PCS provided acceptable justification for
not obtaining the quotes. Of the 20 purchase orders, 14 were issued without
obtaining at least three quotes. PCS had an acceptable sole-source justification
for one of the purchases but did not provide justification for the remaining
13 purchase orders, valued at $299,822.


DSS Not Used
The MSC property administrator and contracting officer did not ensure that the
contractor used DSS for spare-parts purchases made between the contract start in
March 2010 and March 2013. PCS contract section 5.7.4, “Procurement Procedures
for Material/Supplies and Installed Equipment,” states that the contractor will
query DSS when on-hand stock is insufficient or not available. Section 5.7.6,
“Commercial Procurements of Spare Parts and Installed Equipment, General,” states
that if DSS does not stock the item or if DSS lead times are not acceptable, PCS can
then purchase the item from commercial sources. During FY 2011 and FY 2012,
PCS awarded 242 purchase orders, totaling $1,455,348 that exceeded $1,000.
We analyzed 31 of the purchase orders (15 from the Gilliland and 16 from the
Gordon), valued at $438,529, to determine whether PCS used DSS before making
commercial purchases. Of those 31 purchase orders, we determined that PCS did
not use DSS before making the purchases. According to PCS representatives, PCS
had never queried or used DSS for spare-parts purchases made for any Sealift
Program LMSR ships since its contract began in March 2010.


Purchase Orders Not Properly Reviewed
MSC officials were not specifically required to review that the contractor provided
acceptable justification for inadequately competed purchases as required by the
PCS contract. Although COMSCINT 4340.3C requires the program manager, logistics
to audit contractor invoices when material purchases are made from the Federal
Supply System, it does not require review of material purchases made from
commercial sources to ensure that competition is occurring, as required by
PCS contract section G-9. Adequate purchase order review would have ensured that
the MSC program manager for logistics require acceptable justification for the
inadequate competition or require PCS to obtain the three quotes before making the
purchases. The Commander, Military Sealift Command, should establish controls to
ensure the contractor follows contract requirements regarding competition for the
purchase of reimbursable items.


                                                                                   DODIG-2014-106 │ 15
Finding B



                 Contract Requirement for DSS Use Not Clear
                 Although PCS contract sections 5.7.4 and 5.7.6 require PCS to query and use
                 DSS, when available, unless it would adversely affect the operation of the ship,
                 sections 5.4, “Repair/Spare Parts,” and section 5.7.5, “Procurement through the Navy
                 Supply System,” contradict that requirement. Specifically, section 5.4 states that
                 the use of the Federal Supply System5 is “optional,” and section 5.7.5 states that
                 the contractor is not required to acquire NSN/material/supplies through the
                 DoD/Navy Supply System. When asked about the conflicting language, the MSC
                 contracting officer said the contract requirement to use DSS is “owned” by the
                 program office, and he thought the program office wanted to give the contractor
                 flexibility in its spare-parts acquisitions. However, the MSC contracting officer
                 stated the contractor must first attempt to acquire spare parts from on-hand
                 stock and DSS and that if a spare part is not available in DSS, the contractor should
                 procure the part commercially. MSC logistics and contracting personnel were
                 unaware that PCS did not use DSS for purchases until our March 2013 site visit.
                 The PCS contract program manager cited the contract section stating that the use
                 of the Federal Supply System was optional. The Commander, Military Sealift
                 Command should ensure the PCS contract is modified to clarify and require the
                 use of DSS before acquiring spare parts from commercial sources.


                 Increased Potential for Overpayment
                 As a result of PCS not achieving adequate competition for 13 purchase orders,
                 MSC potentially paid more for the spare parts purchased. MSC’s failure to review
                 PCS’s justification for the inadequate competition increased the risk that MSC
                 paid more than necessary. Adequate competition increases the likelihood that
                 spare parts are procured at competitive prices. It also reduces the risk of
                 purchases being directed to a few vendors at the expense of the Government.

                                                In addition, as a result of PCS not using DSS, MSC paid
                                                    approximately $63,674 more than the DSS price for spare
                       MSC paid
                                                      parts. PCS could have used DSS to purchase 28 of 76 parts
                    approximately
                  $63,674 more than                   on 31 purchase orders. For the commercial purchase
                   the DSS price for                  of these 28 parts, MSC reimbursed PCS $184,837.
                     spare parts.                     Purchase of the parts through DSS would have cost
                                                    $121,163 and resulted in savings of approximately $63,674.




                 	5	
                       Federal Supply System includes General Services Administration, DoD Emall, and the Military Services’ Supply systems.



16 │ DODIG-2014-106
                                                                                             Finding B



Management Comments on Finding B and
Our Response
The Executive Director, Military Sealift Command, responding for the Commander,
Military Sealift Command, recommended revision of the second sentence in the
finding paragraph to remove positional titles.


Our Response
We considered the Executive Director, Military Sealift Command’s request to revise
the sentence in the finding. However, we did not make the revision because the
finding as stated correctly identifies the responsible parties.


Recommendations, Management Comments, and
Our Response
Recommendation B
We recommend that the Commander, Military Sealift Command:

      1.	 Establish controls to ensure the contractor follows contract
           requirements       regarding      competition      for   the   purchase   of
           reimbursable items.

Military Sealift Command Comments
The Executive Director, Military Sealift Command, responding for the Commander,
Military Sealift Command, agreed, stating the:

         •	 contracting officer will modify the contract requiring the contractor
           provide monthly reports on prior month supply purchases to determine
           whether competition was obtained, and if applicable, provide the
           justification for not using DSS or obtaining competition

         •	 contracting officer or designee will audit the contractor’s supply
           purchase documentation at least annually.

The Executive Director also stated that MSC will implement standard operating
procedures for certifying property invoices. The procedures will require the certifier
to determine if reimbursable items are authorized, validated, are accounted for in
the property control system (SHIPCLIP), and if there is appropriate funding available.




                                                                                      DODIG-2014-106 │ 17
Finding B



                       2.	     Direct the contracting officer to modify the Patriot Contract
                               Services contract to clarify and require the use of DSS before
                               acquiring spare parts from commercial sources.

                 Military Sealift Command Comments
                 The Executive Director, Military Sealift Command, responding for the Commander,
                 Military Sealift Command, agreed, stating the contract language pertaining to the
                 use of DSS was not clear. The Executive Director stated that the contract has been
                 modified to remove the conflicting guidance pertaining to DSS use, and provides
                 guidance regarding when DSS use is not required. In addition, the contracting officer
                 will, by September 30, 2014, provide additional guidance on documenting
                 the   contractor’s     DSS   review    when    considering    commercial       procurements.

                 The Executive Director also stated, based on the findings in the report, MSC
                 will review:

                             •	 all MSC-awarded ship operation and maintenance contracts with
                               reimbursable elements to ensure personnel effectively manage Government
                               property and parts are procured at fair and reasonable prices.

                             •	 processes used in the oversight of other reimbursable items to determine
                               if vulnerabilities exist; which could result in mismanagement. If MSC
                               identifies vulnerabilities, MSC will implement procedures to safeguard
                               against mismanagement and ensure all contractual and regulatory
                               requirements are met.

                 Our Response
                 Comments        from   the   Executive    Director   addressed    all   specifics   of   the
                 recommendations, and no further comments are required.




18 │ DODIG-2014-106
                                                                                          Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from November 2012 through June 2014
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

We interviewed MSC and contractor officials responsible for spare-parts inventory
management and procurement. We obtained an understanding of internal controls
and contractor oversight and conducted site visits at MSC headquarters and the
USNS Gilliland and USNS Gordon docked in Baltimore, Maryland. We reviewed
contract No. N00033-10-C-5301; COMSCINST 4340.3C, Military Sealift Command
Contract Property Administration; the MSC Surge LMSR Technical Manual; and the
PCS Government Property Control Procedures.

We reviewed SHIPCLIP inventory records for the four LMSR ships managed by
PCS to determine the quantity and potential value of parts held in excess.
Specifically, we reviewed SHIPCLIP on-hand quantities and compared with
authorized allowance levels established in SHIPCLIP. In May 2013, based on the
SHIPCLIP data, we nonstatistically selected and inventoried the 30 spare parts with
the highest potential excess value for the Gilliland and the 30 spare parts with
the highest potential excess value for the Gordon. In addition, we performed a
reverse inventory to determine the completeness of SHIPCLIP inventory records
for the Gilliland and Gordon. Specifically, we nonstatistically selected five parts in
the storerooms of each ship and determined whether those parts were accurately
recorded in SHIPCLIP.

We reviewed the FY 2011 through FY 2012 purchase-order listings provided by PCS
for the Gilliland and Gordon and determined that PCS issued 622 purchase-order
numbers for parts valued at $1,587,616. The contract between MSC and PCS
only required competition for purchases exceeding $3,000. Thus, to assess adequacy
of competition and any actions taken by MSC, we limited our purchase-order universe
to the 117 purchase orders exceeding $3,000, which were valued at $1,229,015.




                                                                                     DODIG-2014-106 │ 19
Appendixes



                 We reviewed bidding documentation obtained from PCS for 20 purchase orders
                 (10 from each of the two ships) valued at $474,164 and requested the approved
                 PCS invoices from MSC.

                 To assess PCS usage of DSS, we limited the purchase order universe to the
                 242 purchases exceeding $1,000, which were valued at $1,455,348, of the 622 purchase
                 orders in FY 2011 to FY 2012. We nonstatistically sampled 31 spare-parts purchase
                 orders for the Gilliland and Gordon valued at $438,529. We reviewed the procurement
                 orders and delivery documentation to determine the vendor used by PCS, quantity
                 purchased and price paid. For parts with DSS pricing, we compared the price paid for
                 the commercial purchase to the price MSC could have potentially received if PCS had
                 used DSS.

                 From the Defense Logistics Agency Office of Operations Research and Resource
                 Analysis personnel, we received the standard unit price in effect on the transaction
                 date for the purchase orders reviewed. We only used the information from DLA to
                 show the net amount MSC could have saved had the contractor used the DSS.


                 Use of Computer-Processed Data
                 We used computer-processed data provided by MSC and PCS. We used data from
                 MSC SHIPCLIP to obtain the inventory listing of spare parts aboard the
                 USNS Gilliland, USNS Gordon, USNS Shughart and USNS Yano. We used the SHIPCLIP
                 on-hand quantity, authorized allowed levels, and unit price, to calculate an initial
                 estimate of the excess inventory. To verify the accuracy of the excess inventory
                 numbers, we conducted further testing on the Gilliland and Gordon. For these ships,
                 we conducted a physical inventory of 30 spare parts on each ship and verified
                 that 49 of the 60 spare parts had excess quantities. To assess the completeness of
                 the SHIPCLIP data, we selected five parts aboard each ship and attempted to find
                 the parts listed in SHIPCLIP. During these tests, we found inaccuracies in SHIPCLIP
                 that indicated some items identified as excess might not have been excess; some
                 items had unit of measure errors, which caused inaccurate excess values; and
                 some items in the storeroom were not identified in SHIPCLIP. We discuss these
                 inaccuracies in the body of the report. Although we identified some data reliability
                 problems with SHIPCLIP during our testing on the Gilliland and Gordon, we
                 determined that the data were sufficiently reliable for the purpose of identifying
                 that excess spare parts potentially existed on all four ships.




20 │ DODIG-2014-106
                                                                                  Appendixes



We received lists from PCS of purchase orders in FY 2011 and FY 2012 for the
Gilliland and Gordon. We tested the accuracy of the data by reviewing the PCS
procurement order, vendor invoice showing price paid by PCS to the third party
vendor, and delivery receipt. We did not find any errors in the lists.


Use of Technical Assistance
We did not use technical assistance in conducting this audit.


Prior Coverage
No prior coverage has been conducted on the LMSR ships in the Sealift Program
during the last 5 years.




                                                                             DODIG-2014-106 │ 21
Appendixes




                 Appendix B
                 Congressional Request Related to Spare Parts Aboard
                 the USNS Gilliland
                 In November 2011, the DoD Office of Inspector General received a congressional
                 request related to the spare parts aboard the USNS Gilliland, an LMSR ship in the
                 Sealift Program. Specifically, the request focused on concerns that $1 million in excess
                 spare parts were stored on the Gilliland and that MSC paid an excessive price for spare
                 parts. The six items identified as excess were a stainless steel rod, two types of
                 O-rings, a transistor, a filter, and an indicator light.


                 Excess Spare Parts
                 Specific to the congressional request, we reviewed the spare-parts inventory
                 listing in SHIPCLIP for the Gilliland for the parts identified in the congressional
                 request. However, the request did not cite specific NSNs that would have identified
                 the exact spare part. We performed a physical inventory of parts similar to the spare
                 parts cited in the request and confirmed that five parts similar to the six items
                 referenced in the congressional request were held in excess of the authorized
                 quantities. For example, we inventoried 1,999 light-emitting diode bulbs in stock,
                 although the ship was authorized to carry only 1. Transistors were the only item
                 not overstocked.


                 Excessive Prices for Spare Parts
                 We could not confirm that MSC paid excessive prices for the six items listed in
                 the congressional request. The request provided the SHIPCLIP unit price at the time
                 of the request but not the actual purchase price or the NSN; therefore, we could
                 not determine if MSC paid excessive prices for the specific spare parts referenced
                 in the congressional request.




22 │ DODIG-2014-106
                                                                               Appendixes




Appendix C
MSC Sealift Program LMSR Ships
The following list provides the MSC Sealift Program LMSR ships, identifying
information for the ship, and the contractor responsible for its operation.

     U.S. Naval Ship   Hull Number          Class            Contractor
 Benavidez              T-AKR 306          Bob Hope           AMSEA
 Bob Hope               T-AKR 300          Bob Hope           AMSEA
 Brittin                T-AKR 305          Bob Hope           AMSEA
 Fisher                 T-AKR 301          Bob Hope           AMSEA
 Mendonca               T-AKR 303          Bob Hope           AMSEA
 Gilliland              T-AKR 298           Gordon              PCS
 Gordon                 T-AKR 296           Gordon              PCS
 Shughart               T-AKR 295          Shughart             PCS
 Yano                   T-AKR 297          Shughart             PCS




                                                                          DODIG-2014-106 │ 23
Appendixes




                 Appendix D
                 Excess Aboard USNS Gilliland
                 We counted the quantity on-hand for 30 NSNs in the SHIPCLIP records for the
                 USNS Gilliland and calculated the quantity and value of the parts held in excess.
                 The actual excess value found aboard the Gilliland ranged from $4,485 to $69,477.

                                         Storeroom   On-Hand
                                            Item                              Actual             Actual
                                                     Quantity   Excess Per              Actual
                            NSN          Allowance                           On-Hand             Excess
                                                       Per       SHIPCLIP               Excess
                                             Per                             Quantity            Value
                                                     SHIPCLIP
                                          SHIPCLIP
                      5307-22-269-2794       6          43           37          43        37    $69,477
                      4730-01-419-5799       1          10            9          10         9     29,855
                      4330-14-480-5476       1          11           10          11        10     29,009
                      5940-01-303-4978       6         830          824         830       824     27,241
                      0000-TS-L60-9567       1          11           10          11        10     25,000
                      5996-01-425-7261       5           7            2           7         2     24,284
                      4820-01-434-0216       1          45           44          45        44     20,299
                      4730-01-418-6477       1           7            6           7         6     19,903
                      2815-22-269-2685       3           5            2           6         3     18,663
                      4820-01-433-7159       1          33           32          44        43     18,545
                      5310-01-310-5968      83        7862         7779        7862      7779     17,892
                      5998-01-424-7601       1           2            1           2         1     12,688
                      2815-12-341-1216       2           7            5           7         5     10,900
                      4330-14-479-4387      12          29           17          29        17     10,761
                      6210-01-399-8221       1        1999         1998        1999      1998     10,310
                      5930-01-431-0494       1         104          103         104       103      9,785
                      2940-01-417-4939      28         110           82         110        82      9,684
                      6350-01-391-2664      71         238          167         238       167      9,389
                      0000-TS-L60-8973       1          29           28          29        28      9,100
                      5998-12-343-3466       1           2            1           2         1      9,027
                      0000-TS-L61-3433       2         148          146         148       146      8,507
                      4240-01-272-3841       1           3            2           3         2      8,240
                      5331-01-421-9895       2          22           20          22        20      7,665
                      6230-01-269-1831       1           3            2           2         1      4,485




24 │ DODIG-2014-106
                                                                                           Appendixes



                   Storeroom   On-Hand
                      Item                              Actual              Actual
                               Quantity   Excess Per              Actual
      NSN          Allowance                           On-Hand              Excess
                                 Per       SHIPCLIP               Excess
                       Per                             Quantity             Value
                               SHIPCLIP
                    SHIPCLIP
0000-LL-CMB-8310       3          5            2             3      0            0
4720-01-487-4162       1        576          575       576 inch     0            0
5306-22-269-2811       6         12            6             0      0            0
5998-01-422-0570       1          3            2             0      0            0
4720-01-352-2281       2        120          118       120 inch     0            0
5310-22-269-2800      48         96           48            48      0            0
  Total                                                                    $420,709




                                                                                      DODIG-2014-106 │ 25
Appendixes




                 Appendix E
                 Excess Aboard USNS Gordon
                 We counted the quantity on-hand for 30 NSNs in the SHIPCLIP records for the
                 USNS Gordon and calculated the quantity and value of the parts held in excess.
                 The actual excess value found aboard the Gordon ranged from $2,858 to $34,811.

                                         Storeroom   On-Hand
                                            Item                 Excess     Actual             Actual
                                                     Quantity                         Actual
                            NSN          Allowance                Per      On-Hand             Excess
                                                       Per                            Excess
                                             Per                SHIPCLIP   Quantity            Value
                                                     SHIPCLIP
                                          SHIPCLIP
                      4330-14-480-5476       1         12          11         13        12     $34,811
                      0000-LL-CMB-8409       3          4           1          4         1      34,036
                      4820-01-430-8943       2          4           2          4         2      19,353
                      2815-22-269-2685       3          6           3          6         3      18,663
                      2940-01-417-4939      28        176         148        175       147      17,361
                      2815-22-269-2669       6         47          41         49        43      17,027
                      3040-01-424-4701       2          4           2          5         3      15,826
                      5998-01-426-0892       7         14           7         14         7      11,550
                      5920-01-257-2993      51        298         247        298       247      11,283
                      5998-01-437-5632       1          2           1          2         1       8,400
                      2815-22-269-2671       3         23          20         23        20       8,185
                      2815-22-269-2673       3         15          12         13        10       7,763
                      5330-01-428-3638       1          5           4          5         4       7,599
                      4320-01-426-2355       1          2           1          2         1       7,327
                      5330-22-269-2751       3         28          25         28        25       6,753
                      2815-01-457-3242       5         14           9         14         9       5,832
                      4820-01-425-5293       1          3           2          3         2       5,540
                      4820-01-285-6149       4          7           3          7         3       4,889
                      0000-TS-L60-1038       1          2           1          2         1       4,690
                      2915-01-428-6598       1          4           3          4         3       4,678
                      2090-01-442-0263       1          5           4          5         4       4,607
                      3426-01-420-2475       1          3           2          3         2       4,477
                      3120-01-430-8882      11         22          11         22        11       4,431
                      2010-01-421-5338       1          4           3          3         2       3,657




26 │ DODIG-2014-106
                                                                                           Appendixes



                   Storeroom   On-Hand
                      Item                 Excess     Actual             Actual
                               Quantity                         Actual
        NSN        Allowance                Per      On-Hand             Excess
                                 Per                            Excess
                       Per                SHIPCLIP   Quantity            Value
                               SHIPCLIP
                    SHIPCLIP
2590-01-449-2358       4          7          3           6        2         2,858
0000-TS-L61-1200      12         22         10           0        0               0
2930-01-411-6493       1          2          1           1        0               0
0000-TS-L61-1468       1          2          1           1        0               0
3020-01-424-4693       1          2          1           1        0               0
2815-22-269-2668      12         20          8          12        0               0
Total                                                                    $271,596




                                                                                      DODIG-2014-106 │ 27
Management Comments




                 Management Comments
                 Military Sealift Command
                                            Final Report
                                             Reference




28 │ DODIG-2014-106
                                    Management Comments



Military Sealift Command (cont’d)
                                           Final Report
                                            Reference




                                          DODIG-2014-106 │ 29
Management Comments



                 Military Sealift Command (cont’d)
                                                     Final Report
                                                      Reference




30 │ DODIG-2014-106
                                    Management Comments



Military Sealift Command (cont’d)
                                           Final Report
                                            Reference




                                          DODIG-2014-106 │ 31
Management Comments



                 Military Sealift Command (cont’d)
                                                     Final Report
                                                      Reference




32 │ DODIG-2014-106
                                    Management Comments



Military Sealift Command (cont’d)
                                           Final Report
                                            Reference




                                          DODIG-2014-106 │ 33
Management Comments



                 Military Sealift Command (cont’d)
                                                     Final Report
                                                      Reference




34 │ DODIG-2014-106
                                    Management Comments



Military Sealift Command (cont’d)
                                           Final Report
                                            Reference




                                          DODIG-2014-106 │ 35
Management Comments



                 Military Sealift Command (cont’d)
                                                     Final Report
                                                      Reference




36 │ DODIG-2014-106
                                    Management Comments



Military Sealift Command (cont’d)
                                           Final Report
                                            Reference




                                            Revised
                                            Background
                                            Section on
                                            Page 3




                                          DODIG-2014-106 │ 37
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                          AMSEA American Overseas Marine
                      COMSCINST Commander, Military Sealift Command Instruction
                             DSS Defense Supply System
                           LMSR Large, Medium-Speed, Roll-On/Roll-Off
                            MSC Military Sealift Command
                            NSN National Stock Number
                             PCS Patriot Contract Services
                        SHIPCLIP Shipboard Configuration and Logistics Program
                           USNS United States Naval Ship




38 │ DODIG-2014-106
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
